                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

Case Number: A05100070
                                                                           11         Page 1o f 2       11
    In September 2005, the complainant' emailed OIG describing his failed efforts to
    convince the subject2 to share her research data. The complainant provided email
    correspondence between him and the subject that he initiated to better understand
    some research the subject published. Ultimately, she declined to provide him with
    the requested data. The complainant noted the 2001 paper3 in which she published
    the data cited NSF support.4
    We reviewed the email correspondence and talked to the complainant. He said he
    wanted specific data (data from fig. 3 of the paper) and did not want identifying
    data (i.e., the data could be scrubbed and aggregated). He said the subject's excuses
    about not providing him the data were evasive (she said the data were unpublished,
    it identified individuals, she did not know which data the subject wanted, and she
    did not know what he wanted to do with the data). He suggested the subject wasn't
    sharing the data because it was falsified. We informed the complainant NSF does
    not require the sharing of data; it merely "expects investigators to share with other
    researchers, a t no more than incremental cost and with a reasonable time, the data,
    samples, physical collections and other supporting materials created or gathered in
    the course of the work."5
    We contacted the subject and asked about the data request. She said she did not
    provide the complainant with the data for some of the same reasons she told the
    complainant and added she couldn't release the data because she didn't know what
    research he was going to do and because of Human Subjects Protection restrictions.
    She said her institution's Vice Provost for Research had told her she did not have to
    share the data.
    We agreed with the complainant that most of the subject's reasons were evasive and
    contradictory with his request; however, her consent form states, "The study and
    use of your DNA will be restricted to [the subject] and her immediate associates."
    We note this form, while exculpatory in this instance, is contrary to NSF's
    expectation of sharing research.



       1  (redacted).
       2  (redacted).
        3 (redacted).
        4 (redacted). The subject said NSF support was used for some data analysis and publication
    costs.
        5 Grant General Conditions (GC-1) 36, Sharing of Findings, Data, and Other Research Products.
    -,                                                                                        .
                                       NATIONAL SCIENCE FOUNDATION
                                       OFFICE O F INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM

Case Number: A05100070                                                        Page 2 of 2


     We asked an expert6 to review the correspondence between the complainant and
     subject, including the figure in the subject's paper. The expert concluded there was
     nothing in the exchange to indicate the subject was refusing to share data because
     the data were suspect and concluded there was no sufficiently strong evidence to
     support the allegation.
     Given all the factors in this case, including the fact that the grant has been expired
     more than 3 years and the expert's analysis about the data, this case is closed




         6   (redacted).


                                                                                              L
